          Office of Inspector General




                                  February 8, 2005

                                  RUDOLPH K. UMSCHEID
                                  VICE PRESIDENT, FACILITIES

                                  LYNN B. MALCOLM
                                  ACTING VICE PRESIDENT, FINANCE, CONTROLLER

                                  SUBJECT: Management Advisory – Post Occupancy
                                           Review of the Greensboro, North Carolina, and
                                           Columbus, Ohio, Processing and Distribution
                                           Centers (Report Number CA-MA-05-001)

                                  This report presents the results of our Post Occupancy
                                  Review of the Greensboro, North Carolina, and Columbus,
                                  Ohio, Processing and Distribution Centers (P&DC) (Project
                                  Number 04XR007CA000). The report responds to a
                                  request from the Executive Vice President, Chief Operating
                                  Officer, to review certain operating variance elements in the
                                  Greensboro, North Carolina, and Columbus, Ohio, Decision
                                  Analysis Reports (DAR).

Results in Brief                  Differences between projected and actual building
                                  maintenance and custodial workhours and utility costs
                                  variances were both favorable and unfavorable. We limited
                                  our scope to a comparison of projected and actual
                                  variances, and the reasons why those variances occurred.
                                  We did not evaluate the significance of the differences.

                                  Opportunities exist to increase the accuracy of DAR
                                  projections for start-up costs. Specifically, the methodology
                                  for start-up costs did not result in reasonable projections of
                                  actual expenses incurred; and adequate documentation did
                                  not exist to enable validation of estimated start-up costs for
                                  the Greensboro P&DC.




  1735 N Lynn St
  Arlington, VA 22209-2020
  (703) 248-2100
  Fax: (703) 248-2256
Post Occupancy Review of the Greensboro,                                        CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers

                             We recommended Postal Service management review and
                             revise as appropriate, the current process for projecting
                             start-up costs. We also recommended Postal Service
                             management enforce compliance with the existing
                             document retention requirement for new construction
                             projects, and ensure that all new construction project
                             implementations include a process to segregate start-up
                             costs from operating costs.

                             Management agreed with the recommendations and stated
                             that they will determine the appropriate course of action
                             regarding revising the process for calculating start-up costs
                             once additional facilities of varying sizes are reviewed.
                             Management also stated that the retention criteria and start-
                             up and operating costs must be reemphasized during the
                             facility activation kick-off, which is currently part of the
                             facility activation plan. While management did not provide
                             corrective actions dates, we consider management’s
                             comments responsive as the Office of Inspector General
                             (OIG) plans to conduct future reviews of various size
                             facilities, and will make additional recommendations, as
                             appropriate.

                             Management also commented that the report appeared to
                             indicate that the DARs did not reasonably reflect the actual
                             costs for maintenance. We did not intend to imply that the
                             DARs did not reasonably reflect the actual costs for
                             maintenance. Specifically, we did not evaluate the
                             significance of the differences, and limited our scope to a
                             comparison of projected and actual variances, and the
                             reason why those variances occurred.

                             Finally, management stated that it would be beneficial to the
                             facility activation process to have a representative from the
                             OIG attend the facility activation kick-off meeting to define
                             and discuss the required post occupancy review
                             documentation. As noted above, the OIG plans to conduct
                             future post occupancy reviews and we will make additional
                             recommendations concerning documentation requirements,
                             as appropriate.

                             Management’s comments, in their entirety, are included in
                             Appendix B of this report.




                                               2
Post Occupancy Review of the Greensboro,                                                                CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers



Background                         Capital new construction projects must be documented with
                                   a DAR. The purpose of a DAR is to ensure that
                                   investments are properly documented and reviewed. The
                                   DAR defines the problem and details the need for the
                                   expenditure, providing sufficient detail to enable the
                                   approving officials to make an informed decision.

                                   Operating variances are one component of the DAR
                                   supporting documentation requirements for major facility
                                   projects. Operating variances include any changes from the
                                   baseline1 and must be detailed by type, including start-up
                                   costs, custodial maintenance, building maintenance,
                                   utilities, labor, rent, transportation, and material handling
                                   economic justification.

Objectives, Scope,                 The objective of our review was to determine if the
and Methodology                    justifications and assumptions for certain costs presented in
                                   the Greensboro, North Carolina, and Columbus, Ohio,
                                   DARs resulted in the expected cost benefits to the Postal
                                   Service. We limited our scope to a comparison of:

                                       •    Planned start-up costs versus actual start-up costs.

                                       •    Building maintenance costs at the prior location
                                            versus actual costs at the new location.

                                       •    Custodial costs at the prior location versus actual
                                            costs at the new location.

                                       •    Building utilities costs at the prior location versus
                                            actual costs at the new location.

                                   Specifically, we compared the actual start-up costs to the
                                   projections contained in the DARs. We compared the prior
                                   facilities’ building maintenance and custodial workhours and
                                   utilities costs to the second 12 months2 after the acceptance
                                   date.

1
  The baseline generally represents the most recent full fiscal year of operating costs and must reflect all existing
facilities, automation, material handling, and existing services, including space or environmental deficiencies.
2
  Based on discussion with Postal Service management, the second 12 months was used for comparison because
during the first 12 months after acceptance, any maintenance issues were covered under the builder’s warranty on
the building and thus would not have resulted in any maintenance costs during that period.




                                                           3
Post Occupancy Review of the Greensboro,                                          CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers



                             To achieve the objectives, we reviewed applicable criteria,
                             and interviewed headquarters personnel as well as
                             personnel at the Greensboro and Columbus P&DCs. We
                             also reviewed DAR supporting documentation, financial
                             reports, Postal Service (PS) Forms 7381, Requisitions for
                             Supplies, Services, and Equipment, utility records, and
                             other documentation as appropriate.

                             This review was conducted from July 2004 through
                             February 2005 in accordance with the President’s
                             Council on Integrity and Efficiency, Quality Standards for
                             Inspections. We discussed our observations and
                             conclusions with appropriate management officials and
                             included their comments, where appropriate.

                             We obtained computer-processed data from WebEIS to
                             determine labor costs and workhours charged to start-up
                             costs. We also obtained computer-processed data from the
                             Postal Service Corporate Database and the Financial Data
                             Mart for utility costs and building maintenance and custodial
                             services. However, we did not establish the reliability of this
                             data due to the limited scope of this review. Nothing came
                             to our attention to suggest data used was unreliable.

Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                             objective of this review.




                                               4
Post Occupancy Review of the Greensboro,                                          CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers



Differences Between          Differences between projected and actual building
Actual and Projected         maintenance and custodial workhours and utility costs
Workhour and Cost            variances are both favorable and unfavorable. We limited
Variances Both               our scope to a comparison of projected and actual
Favorable and                variances, and the reason why those variances occurred.
Unfavorable                  We did not evaluate the significance of the differences.
                             Additionally, opportunities exist to increase the accuracy of
                             DAR projections for start-up costs.

                             The documentation in the DAR is intended to provide
                             sufficient detail to enable the approving officials to make
                             an informed decision about the proposed investment.
                             However, if the DAR does not present realistic data, the
                             Postal Service could commit unnecessary funds for new
                             construction that could be put to other uses, and/or also
                             incur interest costs for borrowed funds that were not
                             needed.

Actual and Projected         Actual and projected variances for building maintenance
Differences                  and custodial workhours and utility costs for the
                             Greensboro, North Carolina, and Columbus, Ohio, P&DCs
                             are shown in Appendix A of this report.

                             The Postal Service calculated projected variances for
                             maintenance and custodial workhours based on planned
                             and authorized position requirements provided by local
                             Maintenance Managers for the new facility. However, not
                             all of these requirements were actually filled at the new
                             facilities. As a result, for the Greensboro P&DC project,
                             projected variances for maintenance and custodial
                             workhours exceeded actual variances by 24.9 and
                             47.2 percent, respectively. For the Columbus P&DC
                             project, the projected maintenance workhours variance
                             exceeded the actual variance by 9.4 percent but the
                             projected custodial workhours variance was 1.1 percent
                             less than the actual variance.

                             Postal Service management advised that DAR baseline
                             utility costs that are used to calculate the projected variance
                             represent the most recent complete prior fiscal year,
                             escalated to the estimated occupancy date. Therefore,
                             depending on the actual occupancy date, the baseline may
                             be skewed. Postal Service management also advised that


                                               5
Post Occupancy Review of the Greensboro,                                                                CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers

                                   the projected DAR utility cost variance did not consider
                                   increased energy costs associated with new material
                                   handling systems (Tray Management System) that were
                                   placed in the new facility but did not exist in the prior facility.
                                   Considering these factors may result in a projected variance
                                   that more closely reflects the actual variance achieved.

                                   On September 9, 2004, Postal Service management
                                   advised us that the Tray Management System is no longer
                                   placed in new construction buildings.

                                   The differences between projected and actual variances
                                   were both favorable and unfavorable. The OIG plans to
                                   perform additional post-occupancy reviews to provide
                                   management with a more comprehensive evaluation of the
                                   reasonableness of DAR projections, considering various
                                   facility sizes, locations, and other relevant factors.
                                   Therefore, no recommendations are made at this time.

Opportunity to Increase            Opportunities exist to increase the accuracy of DAR
the Accuracy of DAR                projections for start-up costs.3 Specifically, the
Start-up Cost                      methodology for projecting start-up costs for the two P&DCs
Projections                        did not result in reasonable projections of actual expenses
                                   incurred, and adequate documentation did not exist to
                                   enable validation of estimated start-up costs for the
                                   Greensboro P&DC.

                                   As a result, DAR projections for start-up costs at the
                                   Columbus and Greensboro facilities did not accurately
                                   predict actual expenses incurred. At Columbus, DAR
                                   projected start-up costs were $10.8 million while actual
                                   start-up costs were $7.6 million. At Greensboro, DAR
                                   projected start-up costs were $6.1 million while actual
                                   start-up costs were $3.3 million.4




3
  Start-up costs include adapting to the Postal Service environment, moving, training, normal disruption, salary for the
Activation Coordinator, and one-time expense purchases.
4
  We were not able to validate all start-up costs in Greensboro due to a lack of supporting documentation available for
those costs. However, we believe that the estimated amounts for start-up costs are a conservative measure of the
actual expenditures.



                                                           6
Post Occupancy Review of the Greensboro,                                                        CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers



                                The Postal Service calculated projected start-up costs
                                based on the application of a fixed rate applied to total
                                square footage. At the time the two P&DCs were planned,
                                start-up costs were calculated based on planned square
                                footage multiplied by $6.50. The results were then
                                escalated at 5.5 percent5 for each year after 1990 to the last
                                year of investment and the first operating year (fiscal
                                years 2000 and 2001).6 This methodology resulted in
                                start-up cost projections that exceeded actual start-up costs
                                for the Columbus and Greensboro P&DC projects by about
                                29.6 and 49.1 percent respectively. Therefore,
                                opportunities exist to improve the current process for
                                projecting start-up costs that more closely reflect actual
                                expenses incurred.

                                Regarding validation of start-up costs at the Greensboro
                                facility, we were unable to segregate all start-up costs at the
                                new facility from operating costs at the old facility. Postal
                                Service management at the facility advised us that they had
                                experienced significant turnover, and therefore some
                                documents were either lost or destroyed. Additionally,
                                the retention requirement for PS Forms 7381, Requisition
                                for Supplies, Services or Equipment, is a maximum of
                                two years.7 Furthermore, start-up costs for the new
                                Greensboro facility were included in the same finance
                                number as operating costs for the prior facility.

                                Handbook F-66, General Investment Policies & Procedures,
                                states that all major investment project implementations
                                should be accompanied by a system that tracks current and
                                after deployment performance and provides data for the
                                cost study or audit. Additionally, it requires that all records
                                showing complement, workhours, mail volumes,
                                productivities, and expenses, regardless of the retention life
                                cycle, be retained in one location from the time of project
                                approval until the conclusion of the cost study or audit,
                                which may be several years after move-in or final
                                deployment. Therefore, although general retention
                                requirements for PS Forms 7381 exist, Postal Service


5
 Escalation factors are established by the Vice President, Finance, Controller.
6
  Management Instruction AS-510-90-12, New Facility Start-up Costs for DAR Cash Flow, dated November 20, 1990.
7
  PS Form 7381 was used to document all requests for items necessary to construct and occupy the new P&DCs.



                                                      7
Post Occupancy Review of the Greensboro,                                           CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers



                             personnel should have had a system to track start-up costs
                             and should have retained all documentation in the file.

                             In a meeting on August 25, 2004, management advised that
                             the current process is to purchase all items needed for new
                             construction through eBuy, a Web-based ordering system,
                             instead of hardcopy PS Form 7381. The retention
                             requirements stated in Handbook F-66 also apply to
                             electronic information so the electronic ordering information
                             for new construction projects should be maintained with the
                             file until the cost study or audit is completed.

                             Management at the Columbus P&DC obtained a unique
                             finance number to segregate start-up costs at the new
                             facility from operating costs at the old facility. Segregating
                             start-up costs enabled visibility to actual cost information
                             that could be used to improve the accuracy of future
                             investment projections.

Recommendation               We recommend the Vice President, Facilities, in
                             coordination with the Acting Vice President, Finance,
                             Controller:

                             1. Review, and revise as appropriate, the current process
                                for projecting start-up costs to produce a more precise
                                estimate for future new construction projects.

Management’s                 Management agreed with the recommendation, and stated
Comments                     that they will determine the appropriate course of action
                             regarding revising the process for calculating start-up costs
                             once additional facilities of varying sizes are reviewed.
                             Management also commented that the review did not
                             provide an account of start-up by category, and that it would
                             be useful to have equipment and material handling start-up
                             costs separated from the other start up costs.

Evaluation of                Management’s comments are responsive to the
Management’s                 recommendation and actions planned should correct the
Comments                     issue identified in the finding. Although management did
                             not provide specific dates for corrective action, we plan to
                             conduct additional reviews of various size facilities in the
                             future, and will make additional recommendations, as
                             appropriate.


                                               8
Post Occupancy Review of the Greensboro,                                         CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers

                             Also, we recognize the usefulness of the separation of start-
                             up costs to management and plan to include an analysis of
                             start-up costs by categories in future post occupancy
                             reviews

Recommendations              We recommend the Vice President, Facilities:

                             2. Enforce compliance with existing retention criteria for
                                supporting documentation associated with new
                                construction projects.

                             3. Ensure that all new construction project implementations
                                include a system that tracks current and after-
                                deployment performance, to include a process to
                                segregate start-up costs from operating costs.

Management’s                 Management agreed with the recommendations, and stated
Comments                     that the retention criteria and start up, and operating costs
                             are defined during the facility activation process, and these
                             elements must be reemphasized during the facility
                             activation kick-off. Management stated that this is currently
                             part of the facility activation plan.

Evaluation of                Management’s comments are responsive to the
Management’s                 recommendations and the actions planned should correct
Comments                     the issues identified in the finding. Although management’s
                             comments did not provide specific dates for corrective
                             action, they agreed that compliance with the existing
                             retention criteria would be reemphasized during facility
                             activation kick-off meetings.

                             We appreciate the cooperation and courtesies provided
                             by your staff during the review. If you have any questions,
                             or need additional information, please contact Janet
                             Sorensen, Audit Manager, Facilities, or me at (703)
                             248-2300.

                             /s/ Colleen A. McAntee

                             Colleen A. McAntee
                             Deputy Assistant Inspector General
                              for Field Operations

                             Attachments


                                               9
Post Occupancy Review of the Greensboro,              CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers



                             cc: Patrick R. Donahoe
                                 Alexander Lazaroff
                                 Steven R. Phelps




                                             10
Post Occupancy Review of the Greensboro,                                                                                                    CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers


                                                          APPENDIX A
                                               ACTUAL AND PROJECTED DIFFERENCES


                                                                                                                          Percentage
                                                                                                            Difference    Difference
                                                                                                             Between       Between          Percentage
                         Prior         Planned Post                         Actual Post                     Actual and    Actual and      Difference From
                       Building         Occupancy           Planned         Occupancy            Actual      Planned       Planned            Planned
     Category           Actual            Amount           Variance*         Amount            Variance**    Variance     Variance***     Hours/Dollars****
Greensboro
Building
Maintenance
Workhours                    38,000             46,965           8,9658            44,734           6,734        -2,231         -24.9%                   -4.8%
Greensboro
Custodial                    60,267
Workhours                                       80,303          20,036             70,855          10,588        -9,448         -47.2%                  -11.8%
Greensboro
Utility Costs             $545,273           $768,002         $222,729           $847,803        $302,530       $79,801         35.8%                   10.4%
Columbus
Building
Maintenance
Workhours                    65,165             82,908          17,743             81,234          16,069         -1674          -9.4%                   -2.0%
Columbus
Custodial
Workhours                  111,181            148,196           37,015            148,589          37,408           393          1.1%                    0.3%
Columbus Utility
Costs                   $1,073,799         $1,616,738         $542,939         $1,761,830        $688,031      $145,092         26.7%                    9.0%

*Planned Post Occupancy Amount less Prior Building Actual.
**Actual Post Occupancy Amount less Prior Building Actual.
***Actual Variance less Planned Variance divided by Planned Variance.
****Difference between Actual and Planned Variance divided by Planned Post Occupancy Amount.




8
 The projected variance shown in the DAR was 4,235 and was based on a calculation that included input errors. We calculated the variance shown in the table by
correcting the input errors.



                                                                                    11
Post Occupancy Review of the Greensboro,                   CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers


                       APPENDIX B. MANAGEMENT’S COMMENTS




                                           12
Post Occupancy Review of the Greensboro,        CA-MA-05-001
 North Carolina, and Columbus, Ohio,
 Processing and Distribution Centers




                                           13
